U.S. Department of Health and Human Services
Office of Inspector General




Compendium of
Priority Recommendations




                                     O IG      March 2014
http://oig.hhs.gov
HHS Office of Inspector General                                                                       Introduction
Compendium of Priority Recommendations | March 2014


OIG Compendium of
Priority Recommendations
About the March 2014 edition
This document, entitled the Compendium of Priority Recommendations (Compendium),
renames the Compendium of Unimplemented Recommendations, a core publication of the
Department of Health and Human Services (HHS) Office of Inspector General (OIG). With this
edition, we focus on 25 priority issues for which we have open recommendations.

The Compendium constitutes OIG’s response to a specific requirement of the Inspector General
Act of 1978, as amended. (Section 5(a)(3).) That is, it identifies significant recommendations
described in previous Semiannual Reports to Congress with respect to problems, abuses, or
deficiencies for which corrective actions have not been completed. The 2014 edition also
responds to a requirement associated with the Consolidated Appropriations Act of 2014
directing OIG to report its top 25 unimplemented recommendations that, on the basis of the
professional opinion of OIG, would best protect the integrity of HHS programs if implemented.1

The recommendations represent opportunities to achieve cost savings, improve program
management, and ensure quality of care and safety of beneficiaries in fiscal year (FY) 2014 and
beyond. 2 The 25 broad “Priority Recommendations” we identified for this edition derive from
more specific recommendations that OIG has made to HHS in audit and evaluation reports.
Those more specific recommendations, or action steps, are included in the summary of each
broad recommendation, and the underlying reports are referenced. The 25 priority
recommendations are generally grouped by the underlying HHS program or operation; thus,
they are not internally ranked and so do not reflect relative priority among the 25.


Implementation of OIG’s recommendations
Implementing OIG’s recommendations generally requires one of three types of actions:
legislative, regulatory, or administrative. Some issues involve more than one type of corrective
action.

1
  Explanatory Statement Submitted by Mr. Rogers of Kentucky, Chairman of the House Committee on
Appropriations, Regarding the House Amendment to the Senate Amendment on H.R. 3547 Consolidated
Appropriations Act, 2014; Division H – Departments of Labor, Health and Human Services, and Education, and
Related Agencies Appropriations Act, 2014; Title II, Department of Health and Human Services, Office of Inspector
General, p. 63.
2
  The Compendium does not include all unimplemented OIG recommendations. For example, it does not include
recommendations that are only to collect improper payments or those that are addressed to specific non-Federal
entities. It also does not include recommendations that are significant but involve sensitive security issues.
HHS Office of Inspector General                                                       Introduction
Compendium of Priority Recommendations | March 2014

OIG relies on policymakers, such as HHS and its operating divisions (OPDIVs) and staff divisions
(STAFFDIVs), the Administration, Congress, and States, to take the necessary steps to achieve
optimal outcomes. Although many OIG recommendations are directly implemented by
organizations within HHS, some are acted on by States that collaborate with HHS to administer,
operate, and/or oversee designated federally funded programs, such as Medicaid.

Some of the recommendations in the Compendium would require additional authority or other
legislative change. In some instances, HHS disagrees with OIG’s recommendations. Congress
sometimes steps in to incorporate OIG’s recommendations into legislative actions, resulting in
substantial savings or public funds’ being put to better use and/or in improvements in quality of
care, program integrity, or better information systems and processes.

Many of the recommendations in this Compendium have seen some progress. However, as of
March 2014, the date of publication, OIG had reason to believe that more should be achieved.


Emerging issues and the OIG Work Plan

The 25 priority recommendations described in the body of this report reflect OIG’s past and
recently issued final reports. As such, the recommendations do not reflect the significant
amount of work currently underway in OIG on many emerging issues, including analyzing the
implementation of programs established by the Patient Protection and Affordable Care Act of
2010 that recently took effect.

Brief descriptions of our FY 2014 work in progress and planned “new starts” are presented in
the OIG Work Plan for FY 2014, which is available on our Web site. When the reviews are
completed and final reports are issued, we publish them on a flow basis on our home page
under “What’s New.” Subsequently, the reports that are particularly significant are consolidated
into and summarized in our Semiannual Reports to Congress.


HHS agencies, programs, and functions
Centers for Medicare & Medicaid Services Programs
The programs of the Centers for Medicare & Medicaid Services (CMS), which include Medicare,
Medicaid, and the Children’s Health Insurance Program (CHIP), account for about 80 percent of
HHS’s budget. The programs provide medical coverage for adults and children in certain
statutorily defined categories.

Public Health and Human Service Programs and Other HHS-Related Issues
Public Health—Public Health-related agencies, which include the Agency for Healthcare
Research and Quality (AHRQ), the Centers for Disease Control and Prevention (CDC), the Food
and Drug Administration (FDA), the Health Resources and Services Administration (HRSA), the
HHS Office of Inspector General                                                        Introduction
Compendium of Priority Recommendations | March 2014

Indian Health Service (IHS), and the National Institutes of Health (NIH), promote biomedical
research; prevent and cure diseases; ensure the safety and efficacy of marketed food, drugs,
and medical devices; or conduct other activities designed to ensure the general health and
safety of Americans.

Human Services—The Administration on for Community Living (ACL) and the Administration for
Children and Families (ACF) provide Federal direction and funding for State-administered
efforts designed to promote stability, economic security, responsibility, and self-support for the
Nation’s families and to establish comprehensive community-based systems to help maintain
dignity and quality of life.

Other HHS-Related Issues—Departmental functions include policies and procedures for
financial accounting, information systems management, oversight of grants and contracts, and
selected initiatives involving more than one HHS organizational entity.



If more information is needed on any report listed in this publication, the report numbers are
hyperlinked to the full text of the reports on our Web site. The full reports can also be located
by entering the report numbers into any major Internet search engine or into the search field on
our Web site. Questions about the Compendium or other publications should be directed to
OIG’s Office of External Affairs at 202-619-1343.

•   OIG’s Web site, which provides a full range of OIG output, includes the Compendium and
    other key publications, such as the OIG Work Plan, Semiannual Report to Congress, and
    Medicaid Integrity Program Report. The Web site is at http://oig.hhs.gov.

•   You may report potential instances of waste, fraud, or abuse related to HHS’s programs via
    our Web site at https://forms.oig.hhs.gov/hotlineoperations.
HHS Office of Inspector General                       Introduction
Compendium of Priority Recommendations | March 2014




                            http://oig.hhs.gov
HHS Office of Inspector General                                                                                 Page i
Compendium of Priority Recommendations | March 2014 Edition



Contents


Medicare Policies and Payments ................................................ 1
    01 Address wasteful Medicare policies and payment rates for clinical
       laboratories, hospitals, and hospices. .......................................................... 1

    02 Improve controls to address improper Medicare billings by community
       mental health centers, home health agencies, and skilled nursing facilities. 3

    03 Detect and recover improper Medicare payments for services to
       incarcerated, unlawfully present, or deceased individuals........................... 5

    04 Maximize recovery of Medicare overpayments. .......................................... 8

    05 Improve monitoring and reconciliation of Medicare hospital outlier
       payments. .................................................................................................... 9

    06 Medicare Part C—Ensure that Medicare Advantage Organizations are
       implementing programs to prevent and detect waste, fraud, and abuse. .. 10

    07 Medicare Part D—Improve controls to address questionable billing and
       prescribing practices for prescription drugs. .............................................. 11

Medicare Quality of Care and Safety Issues.............................. 13
    08 Hospitals—Address adverse events in hospital settings. ........................... 13

    09 Nursing homes—Improve care planning and discharge planning for
       beneficiaries in nursing home settings. ..................................................... 14

    10 Nursing homes—Address harm to patients, questionable resident
       hospitalizations, and inappropriate drug use. ............................................ 14

    11 Nursing homes—Improve emergency preparedness and response. .......... 16

    12 Hospices—Ensure compliance with Medicare Conditions of Participation. 16
HHS Office of Inspector General                                                                              Page ii
Compendium of Priority Recommendations | March 2014 Edition



Medicaid Program Policies and Payments ................................ 17
    13 Federal share of Medicaid—Ensure that State claims and practices do not
       inappropriately inflate Federal reimbursements. ....................................... 17

    14 Improper payments—Ensure that States prevent, detect, and recover
       improper payments and return the Federal share of recoveries to the
       Federal Government. ................................................................................. 18

    15 Medicaid drug pricing—Assist States to better align drug reimbursements
       with pharmacy acquisition costs. ............................................................... 20

    16 Ensure that Medicaid Information Systems are fully functional................. 21

    17 Address Medicaid managed care fraud and abuse concerns. .................... 22

Medicaid Quality of Care and Safety Issues .............................. 23
    18 Medicaid home- and community-based care settings—Ensure that service
       providers comply with quality and safety requirements. ........................... 23

    19 Prevention—Ensure that States improve utilization of preventive screening
       services for eligible children. ..................................................................... 25

Oversight of Food Safety........................................................... 25
    20 Improve oversight of dietary supplements ................................................ 25

    21 Improve oversight of food inspections and traceability. ............................ 26

HHS Grants and Contracts ........................................................ 28
    22 Grants—Improve oversight of grantee compliance, quality assurance, and
       conflicts of interest. ................................................................................... 28

    23 Contracts—Improve oversight of Medicare contractor performance and
       conflicts of interest. ................................................................................... 31
HHS Office of Inspector General                                                              Page iii
Compendium of Priority Recommendations | March 2014 Edition



HHS Financial Stewardship ....................................................... 35
    24 Reduce improper payments and fraud. ..................................................... 35

    25 Correct deficiencies found in financial statement audits ........................... 36
HHS Office of Inspector General                               Page iv
Compendium of Priority Recommendations | March 2014 Edition




                             http://oig.hhs.gov
HHS Office of Inspector General                                                Page v
Compendium of Priority Recommendations | March 2014 Edition



                        Selected Acronyms and Abbreviations
                 ACF           Administration for Children and Families
                 ACL           Administration for Community Living
                 AMP           average manufacturer price
                 AWP           average wholesale price
                 CAH           critical access hospital
                 CBO           Congressional Budget Office
                 CCDF          Childcare and Development Fund
                 CERT          comprehensive error rate testing
                 CHIP          Children’s Health Insurance Program
                 CMHC          community mental health center
                 CMS           Centers for Medicare & Medicaid Services
                 CMS-ARTS      CMS Analysis, Reporting, and Tracking System
                 DEA           Drug Enforcement Administration
                 EPSDT         Early and Periodic Screening, Diagnostic, and
                               Treatment
                 FDA           Food and Drug Administration
                 FFS           fee for service
                 FY            fiscal year
                 HCBS          home- and community-based services
                 HHA           home health agency
                 HRSA          Health Resources and Services Administration
                 IPIA          Improper Payments Information Act
                 MA            Medicare Advantage
                 MAC           Medicare administrative contractor
                 MCE           managed care entity
                 MCO           managed care organization
                 MSIS          Medicaid Statistical Information System
                 NIH           National Institutes of Health
                 OAI           official action indicated
                 OIG           Office of Inspector General
                 OMB           Office of Management and Budget
                 PBM           pharmacy benefit manager
                 PCS           personal care services
                 PIHP          prepaid inpatient health plan
                 PSC           program safeguard contractor
                 P&T           pharmacy and therapeutics (committee)
                 RAC           recovery audit contractor
                 RUG           resource utilization group
                 SNF           skilled nursing facility
                 SOSI          statement of social insurance
                 T-MSIS        Transformed MSIS
                 UPL           upper payment limit
                 WAC           wholesale acquisition cost
                 ZPIC          zone program integrity contractor
HHS Office of Inspector General                               Page vi
Compendium of Priority Recommendations | March 2014 Edition




                             http://oig.hhs.gov
HHS Office of Inspector General                                                                          Page 1
Compendium of Priority Recommendations | March 2014




Medicare Policies and Payments
01 Address wasteful Medicare policies and payment rates for clinical
   laboratories, hospitals, and hospices.
Clinical laboratories.
Medicare pays significantly more than other insurers, including Medicaid, for clinical laboratory tests.
In 2011, Medicare could have saved $910 million on 20 high-volume/high-expenditure lab tests if it had
paid providers at the lowest established rate we identified for each geographical area. Medicare savings
could also be achieved by reinstating beneficiary copayments and deductibles. One such proposal by the
Congressional Budget Office (CBO) was estimated to save $23.8 billion over 10 years. 1


      Key OIG Reports                                      Specific Recommendations

Comparing Lab Test Payment              Seek legislation that would allow CMS to establish lower payment
Rates: Medicare Could                   rates for lab tests and
Achieve Substantial Savings.
OEI-07-11-00010. 2013 JUN.              seek legislation to institute copayments and deductibles for lab
                                        tests.


Variation in the Clinical               Seek legislation allowing CMS to set accurate and reasonable
Laboratory Fee Schedule.                payment rates for laboratory tests.
OEI-05-08-00400. 2009 JUL.

See also:
•   1996 JAN—Follow-up to Report. Changes Are Needed in the Way Medicare Pays for Clinical Laboratory Tests.
    A-09-93-00056.


Critical access hospitals.
If the Centers for Medicare & Medicaid Services (CMS) had decertified critical access hospitals (CAHs)
that were 15 or fewer miles from their nearest hospitals in 2011 and had paid them at the applicable
non-CAH rates, Medicare and its beneficiaries would have saved $449 million. Medicare and its
beneficiaries pay more for care in CAH-certified hospitals, but most CAHs would not meet the location
requirements if required to re-enroll in Medicare.

One Office of Inspector General (OIG) report revealed that nearly two-thirds of CAHs would not meet the
location requirements if required to re-enroll and the vast majority would not meet the distance
requirement.

1
 (CBO: Budget Options, Volume 1: Health Care. Option 86. “Impose a Deductible and Coinsurance for Clinical
Laboratory Services Covered by Medicare,” p. 159.)
HHS Office of Inspector General                                                                       Page 2
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                      Specific Recommendations

Most Critical Access Hospitals          Seek legislative authority to remove Necessary Provider CAHs'
Would Not Meet the Location             permanent exemption from the distance requirement, thus
Requirements If Required To             allowing CMS to reassess these CAHs;
Re-enroll in Medicare.
OEI-05-12-00080. 2013 AUG.              seek legislative authority to revise the CAH Conditions of
                                        Participation to include alternative location-related requirements;

                                        periodically reassess CAHs’ compliance with all location-related
                                        Conditions of Participation; and

                                        apply the uniform definition of “mountainous terrain” to all CAHs.

See also:
•   2013 DEC—Services Provided at Critical Access Hospitals in 2011. OEI-05-12-00081.



Inpatient hospital payment policies.
We highlight two priority issue areas: payments for outpatient services related to inpatient admissions
and payments associated with early transfers to hospice care. A February 2014 report concluded that
expanding the window of time covered by Medicare’s lump sum payments for inpatient care would
result in cost savings. We reviewed outpatient services that the admitting hospitals provided during
the 11 days prior to the existing window and found that In 2011, Medicare and its beneficiaries paid an
estimated $263 million for such services. OIG has previously recommended expanding the window but
CMS has not sought authority to do so. Regarding hospital transfer policy, a May 2013 report revealed
that If Medicare Part A had implemented a hospital transfer payment policy for early discharges from
hospitals to hospice care in 2009 and 2010, it could have saved over $600 million. Generally, instead of
making full payments, Medicare pays the discharging hospitals a reduced rate for early discharges to
other care settings. There is no similar policy for transfers to hospice care. We found that about 30
percent of all hospital discharges to hospice care were early discharges that, under a transfer payment
policy, could have resulted in reduced payments.


       Key OIG Report                                       Specific Recommendation

Medicare and Beneficiaries              CMS should seek legislative authority to expand the DRG window
Could Realize Substantial               to include additional days prior to the inpatient admission and
Savings If the DRG Window
Were Expanded.                          CMS seek legislative authority to expand the DRG window to
OEI-05-12-00480. 2014 FEB.              include other hospital ownership arrangements, such as affiliated
                                        hospital groups.


Medicare Could Save Millions            Change regulations or pursue a legislative change, if necessary, to
by Implementing a Hospital              establish a hospital transfer payment policy for early discharges to
Transfer Payment Policy for
HHS Office of Inspector General                                                                       Page 3
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                      Specific Recommendation

Early Discharges to Hospice             hospice care.
Care. A-01-12-00507.
2013 MAY.

See Also:
•   2003 AUG—Expansion of the Diagnosis Related Group Payment Window, A-01-02-00503.


Hospice care in nursing homes.
Medicare’s hospice payment methodology may lead some hospices to inappropriately seek out
beneficiaries in nursing facilities. Medicare spending on hospice care for nursing facility residents
increased nearly 70 percent from $2.55 billion in 2005 to $4.31 billion in 2009, an increase not explained
by the demographics of the Medicare population. Medicare pays hospices an all-inclusive daily rate
under Part A. The rate is paid to the hospice for each day that a beneficiary is in hospice care, regardless
of the number of services furnished. We identified hundreds of hospices that had more than two-thirds
of their beneficiaries residing in nursing facilities in 2009.


       Key OIG Report                                      Specific Recommendations

Medicare Hospices That Focus            Monitor hospices that depend heavily on nursing facility residents
on Nursing Facility Residents.          and
OEI-02-10-00070. 2011 JUL.
                                        modify the payment system for hospice care in nursing facilities,
                                        seeking statutory authority, if necessary.

See also:
•   2011 JUL—OIG Spotlight: Hospice Care Claim Problems.




02 Improve controls to address improper Medicare billings by
   community mental health centers, home health agencies, and
   skilled nursing facilities.
Community mental health center services.
We estimated that during 2010, about half of community mental health centers (CMHCs) that we
reviewed met or exceeded thresholds that indicated unusually high Medicare billing for at least one of
nine questionable billing characteristics. About 90 percent of CMHCs with questionable billing were in
States that do not require CMHCs to be licensed or certified. We found problems with CMS’s oversight
HHS Office of Inspector General                                                                   Page 4
Compendium of Priority Recommendations | March 2014


of its contractors’ activities to detect and deter CMHC fraud and found that Medicare continued to pay
CMHCs that did not comply with its requirements.


      Key OIG Reports                                    Specific Recommendations

Vulnerabilities in CMS’s and           Develop a system to track billing-privilege revocation
Contractors’ Activities To             recommendations and improve CMS’s revocation communication
Detect and Deter Fraud in              with Medicare contractors and
Community Mental Health
Centers. OEI-04-11-00101.              coordinate activities to deter CMHC fraud in Florida.
2013 JAN.

Questionable Billing by                Increase monitoring of Medicare billing and fraud prevention
Community Mental Health                controls, and
Centers. OEI-04-11-00100.
2012 AUG.                              review and take appropriate actions against CMHCs with
                                       questionable billing.

See also:
•   2013 DEC—OIG Spotlight: Fighting Fraud at Community Mental Health Centers.


Home health services.
One OIG review found that about one in every four home health agencies (HHAs) exceeded a threshold
that indicated unusually high billing for at least one of our six measures of questionable billing. A
separate review found that as of February 29, 2012, over 2,000 HHAs owed CMS about $408 million for
$590 million in known overpayments that were incurred between 2007 and 2011. We estimated that
CMS could have recovered at least $39 million of that amount if it had required each HHA to obtain a
$50,000 surety bond.


      Key OIG Reports                                   Specific Recommendations

Inappropriate and                      Implement claims processing edits or improve existing edits to
Questionable Billing by                prevent inappropriate payments,
Medicare Home Health
Agencies. OEI-04-11-00240.             increase monitoring of billing for home health services,
2012 AUG.
                                       enforce and consider lowering the 10-percent cap on the total
                                       outlier payments an HHA may receive annually, and

                                       take appropriate action regarding inappropriate payments and
                                       HHAs with questionable billing.


Surety Bonds Remain an                 CMS should implement the HHA surety bond requirement.
Unused Tool To Protect
HHS Office of Inspector General                                                                    Page 5
Compendium of Priority Recommendations | March 2014


Medicare From Home Health
Overpayments.
OEI-03-12-00070. 2012 SEP.



Skilled nursing facilities.
OIG has identified a number of problems with billing by skilled nursing facilities (SNF), including the
submission of inaccurate, medically unnecessary, and fraudulent claims. SNFs billed one-quarter of all
claims in error in 2009, resulting in $1.5 billion in inappropriate Medicare payments. Payments to SNFs
for ultra-high therapy rose from $5.7 billion in 2006 to $10.7 billion in 2008, an increase of nearly
90 percent.

       Key OIG Reports                                  Specific Recommendations

Inappropriate Payments to             Increase and expand reviews of SNF claims,
Skilled Nursing Facilities Cost
Medicare More Than                    monitor compliance with the new therapy assessments,
$1 Billion in 2009.
                                      change the current method for determining how much therapy is
OEI-02-09-00200. 2012 NOV.
                                      needed to ensure appropriate payments,

                                      improve the accuracy of data items submitted by SNFs, and

                                      follow up on SNFs that billed in error.


Questionable Billing by Skilled       Monitor overall Medicare payments to SNFs and adjust rates as
Nursing Facilities.                   necessary,
OEI-02-09-00202. 2010 DEC.
                                      strengthen monitoring of SNFs that disproportionately bill for
                                      higher paying resource utilization groups (RUGs), and

                                      follow up on the SNFs identified as having questionable billing
                                      practices.




03 Detect and recover improper Medicare payments for services to
   incarcerated, unlawfully present, or deceased individuals.
Incarcerated beneficiaries.
We identified nearly $33.6 million in uncollected improper payments on behalf of incarcerated
beneficiaries in Part A and Part B during calendar years (CYs) 2009 through 2011. With certain
exceptions, prisons (instead of Medicare) pay for the health care of incarcerated people who are
HHS Office of Inspector General                                                                     Page 6
Compendium of Priority Recommendations | March 2014


otherwise eligible for Medicare (incarcerated beneficiaries). CMS does not always receive timely
updates regarding incarceration information before Medicare contractors pay providers on behalf of
incarcerated beneficiaries. Similarly, we estimated that more than $11.6 million in gross drug costs were
associated with incarcerated beneficiaries in Part D for CYs 2006 through 2010.


      Key OIG Reports                                   Specific Recommendations

Incarcerated beneficiaries in         Implement policies and procedures to detect and recoup
Part B. Medicare Improperly           improper payments made for Medicare services rendered to
Paid Providers Millions of            incarcerated beneficiaries,
Dollars for Incarcerated
Beneficiaries Who Received            ensure that all claims with exception codes are processed
Services During 2009 Through          consistently and pursuant to Federal requirements,
2011. A-07-12-01113. 2013
                                      work with other entities, including the Social Security
JAN.
                                      Administration (SSA), to identify ways to improve the timeliness
                                      with which CMS receives incarceration information,

                                      ensure that Medicare contractors recoup the improper payments
                                      we identified, and

                                      identify improper payments made on behalf of incarcerated
                                      beneficiaries after our audit period and recoup those payments.


Incarcerated beneficiaries in         Develop and implement policies and procedures that provide
Part D. Medicare Improperly           Part D sponsors on a timely basis with all of the incarceration
Paid Millions of Dollars for          information that is necessary for them to verify beneficiaries’
Prescription Drugs Provided           dates and status of incarceration,
to Incarcerated Beneficiaries
During 2006 Through 2010.             reopen and revise final payment determinations for CYs 2006
A-07-12-06035. 2014 JAN.              through 2010 to remove gross drug costs for the sampled
                                      incarcerated beneficiaries, and

                                      work with the sponsors to identify and resolve improper Part D
                                      payments made for prescription drugs provided to incarcerated
                                      beneficiaries.


Unlawfully present beneficiaries.
We identified $91.6 million in improper payments to unlawfully present beneficiaries in Part B during
CYs 2009 through 2011. When CMS received untimely information indicating that unlawful presence
overlapped with the dates of service on previously paid Medicare claims, CMS did not notify Medicare’s
contractors of this updated information, and the contractors did not detect and recoup improper
payments. For the same period, we estimated $29 million in gross drug costs associated with unlawfully
present beneficiaries in Part D. CMS used the supporting records to make final payment determinations
to Part D sponsors.
HHS Office of Inspector General                                                                   Page 7
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                  Specific Recommendations

Unlawfully present                    Implement policies and procedures to detect and recoup
beneficiaries in Part B.              improper payments made for Medicare services rendered to
Medicare Improperly Paid              unlawfully present beneficiaries and
Providers Millions of Dollars
for Unlawfully Present                ensure that Medicare contractors recoup the improper payments
Beneficiaries Who Received            we identified.
Services During 2009 Through
2011. A-07-12-01116.
2013 JAN.

Unlawfully present                    Prevent enrollment of unlawfully present beneficiaries, disenroll
beneficiaries in Part D.              any currently enrolled unlawful beneficiaries, and automatically
Medicare Improperly Paid              reject prescription drug event (PDE) records submitted by
Millions of Dollars for               sponsors for prescription drugs provided to this population;
Prescription Drugs Provided
to Unlawfully Present                 reopen and revise final payment determinations for CYs 2009
Beneficiaries During 2009             through 2011 to remove prescription drug costs for unlawfully
Through 2011.                         present beneficiaries; and
A-07-12-06038. 2013 OCT.
                                      reopen and revise final payment determinations for periods after
                                      the period of this review but before implementation of improved
                                      policies and procedures.


Deceased beneficiaries.
Health care fraud schemes have involved the submission of fraudulent claims by providers or suppliers to
Medicare, including claims for deceased beneficiaries, and prior OIG studies and audit reports have
identified Medicare payments made on behalf of deceased beneficiaries. Our October 2013 report
revealed that although CMS has safeguards to prevent and recover Medicare payments made on behalf
of deceased beneficiaries, it inappropriately paid $23 million in 2011 for dates of service after
beneficiaries’ deaths. Part C accounted for 86 percent of these improper payments. Additionally, 11
percent of these improper payments resulted from the fact that dates of death were missing or
incorrect. Further, we identified 251 providers and suppliers that had high numbers of paid and/or
unpaid Part B claims with service dates after beneficiaries’ deaths.


      Key OIG Reports                                  Specific Recommendations

Medicare Payments Made on             improve existing safeguards to prevent future improper Medicare
Behalf of Deceased                    payments after beneficiaries’ deaths,
Beneficiaries in 2011.
                                      take appropriate action on improper Medicare payments made on
OEI-04-12-00130. 2013 OCT.            behalf of deceased beneficiaries and correct inaccurate dates of
                                      death,
HHS Office of Inspector General                                                                            Page 8
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                       Specific Recommendations

                                         monitor both paid and unpaid Part B claims with service dates
                                         after beneficiaries' deaths, and

                                         take appropriate action on providers and suppliers that had high
                                         numbers of paid and/or unpaid part b claims with service dates
                                         after beneficiaries’ deaths.

See Also:
•   2011 MAY—Review of Medicare Payments to Prescription Drug Plans on Behalf of Deceased Enrollees.
    A-05-09-00027.

•   2010 SEP—Review of Medicare Parts A and B Services Billed With Dates of Service After Beneficiaries’ Deaths.
    A-01-09-00519.

•   2009 MAR—Review of Medicare Payments to Managed Care Plans on Behalf of Deceased Enrollees.
    A-07-07-01046.

•   2000 MAR—Medicare Payments for Services After Date of Death. OEI-03-99-00200.



04 Maximize recovery of Medicare overpayments.
CMS did not provide adequate guidance for collecting millions of dollars of overpayments and did not
have an effective system for monitoring collection efforts. We could not verify the amounts that CMS
reported collecting, and we identified inaccuracies in the reported amounts. Though recent
improvements were made in Medicare’s statute of limitations policy, problems with the reopening
period and other deficient policies and practices continue.


      Key OIG Reports                                       Specific Recommendations

Obstacles to Collection of               Ensure that the Audit Tracking and Reporting System is updated to
Millions in Medicare                     accurately reflect the status of audit report recommendations,
Overpayments.
A-04-10-03059. 2012 MAY.                 ensure that collections information is consistently recorded in the
                                         Audit Tracking and Reporting System, and

                                         collect sustained amounts related to OIG recommendations made
                                         after our audit period to the extent allowed under the law.


Collection Status of Medicare            Require controls in the tracking systems to ensure that all
Overpayments Identified by               overpayment referrals and data related to collection status can be
Program Safeguard                        found.
Contractors.
OEI-03-08-00030. 2010 MAY.
HHS Office of Inspector General                                                                     Page 9
Compendium of Priority Recommendations | March 2014




05 Improve monitoring and reconciliation of Medicare hospital outlier
   payments.
The routine receipt of outlier payments for certain diagnoses at high-outlier hospitals raises concerns
about why charges for similar patient-care cases vary substantially across hospitals. Outliers are
supplemental payments that protect hospitals from significant financial losses from patient-care cases
that are extraordinarily costly. Nearly all hospitals receive outlier payments, and some receive a much
higher proportion of Medicare reimbursements from outlier payments. We found that payments to
selected hospitals averaged 12.8 percent of their Medicare inpatient care reimbursements, compared to
an average of only 2.2 percent for all other hospitals. These high-outlier hospitals charged Medicare
substantially more for the same Medical Severity Diagnostic Related Groups (MS-DRG), even though
their patients had similar lengths of stay as those in all other hospitals. We have also reported problems
with Medicare’s reconciliation and settlement of outlier payments. Work is continuing in this area and
many cost reports that are in our review have not yet been settled.


      Key OIG Reports                                   Specific Recommendations

Medicare Hospital Outlier              Instruct Medicare contractors to increase monitoring of outlier
Payments Warrant Increased             payments,
Scrutiny. OEI-06-10-00520.
2013 NOV.                              include information about the distribution of outlier payments
                                       with other publicly reported hospital data, and

                                       examine whether diagnosis codes associated with high rates of
                                       outlier payments warrant coding changes or other adjustments.


The Centers for Medicare &             Implement an automated system that will recalculate outlier
Medicaid Services Did Not              claims to facilitate reconciliations,
Reconcile Medicare Outlier
Payments in Accordance With            work with the Medicare contractors to develop and maintain a
Federal Regulations and                complete and accurate list of the cost reports with outlier
Guidance. A-07-10-02764.               payments requiring reconciliation,
2012 JUN.
                                       ensure that Medicare contractors reconcile outlier payments and
                                       perform final settlement on the cost reports we reviewed in
                                       accordance with Federal regulations and guidance, and

                                       ensure that Medicare contractors reconcile outlier payments and
                                       perform final settlement on all cost reports submitted after our
                                       audit period in accordance with Federal regulations and guidance.
HHS Office of Inspector General                                                                     Page 10
Compendium of Priority Recommendations | March 2014




06 Medicare Part C—Ensure that Medicare Advantage Organizations
   are implementing programs to prevent and detect waste, fraud,
   and abuse.
MA program costs were $115 billion in fiscal year 2010. CMS does not require MA organizations to
report, nor does CMS routinely review the results of, MA organizations’ fraud and abuse program efforts.
Of the Medicare Advantage (MA) organizations we reviewed, 19 percent did not identify any potential
fraud and abuse incidents in 2009 in either their Part C health benefits or their Part D prescription drug
benefits. Notably, 95 percent of incidents reported were identified by only 3 of 137 organizations
reporting. HHS reported a composite payment error rate of 14.1 percent for the MA program for that
period. Progress has been made as evidenced by a reduction in the error rate from 11.4 percent for
FY 2012 to 9.5 percent for FY 2013 and various initiatives to reduce the errors in risk-adjustment data
and resulting improper payments. We continue to monitor CMS’s implementation of the actions we
specified.


       Key OIG Report                                   Specific Recommendations

Medicare Advantage                     Ensure that MA organizations are implementing programs to
Organizations' Identification          detect, correct, and prevent fraud, waste, and abuse, as required
of Potential Fraud and Abuse.          in their compliance plans, so that all potential Part C and Part D
OEI-03-10-00310. 2012 FEB.             fraud and abuse incidents may be identified;

                                       review MA organizations to determine why certain organizations
                                       reported especially high or low volumes of potential Part C and
                                       Part D fraud and abuse incidents and inquiries;

                                       develop specific guidance for MA organizations on defining
                                       potential Part C and Part D fraud and abuse incidents and
                                       inquiries;

                                       require MA organizations to report to CMS aggregate data related
                                       to their Part C and Part D antifraud, waste, and abuse activities;

                                       ensure that all MA organizations are responding appropriately to
                                       potential fraud and abuse incidents; and

                                       require MA organizations to refer potential fraud and abuse
                                       incidents that may warrant further investigation to CMS or other
                                       appropriate entities.
HHS Office of Inspector General                                                                      Page 11
Compendium of Priority Recommendations | March 2014




07 Medicare Part D—Improve controls to address questionable billing
   and prescribing practices for prescription drugs.
OIG conducted a series of reviews on the basis of PDE records that Part D sponsors submit to CMS to
carry out Part D payment provisions. Sponsors complete the PDE records using information provided by
the pharmacies responsible for filling the prescriptions.

Pharmacies with questionable billing. From the PDE records, we identified 2,600 pharmacies that had
extremely high billing for at least one of the eight measures of questionable billing we developed. Such
pharmacies could be billing for drugs that are not medically necessary or that were not provided to
beneficiaries.

Questionable and invalid prescribers. We identified over 700 general-care physicians who prescribed
extremely high amounts for at least one of the five measures of questionable billing we developed. We
also found that Medicare and Part D sponsors failed to detect many drugs, including controlled
substances, that were being ordered by individuals without the authority to prescribe, such as massage
therapists, athletic trainers, interpreters, counselors, and social workers.

Schedule II drugs billed as refills. We estimated that Medicare Part D paid $25 million for Schedule II
drugs billed as refills in 2009. Such drugs may cause severe psychological or physical dependence if
abused. Federal law prohibits the refilling of prescriptions for them. Over 25,000 of the Schedule II
refills had invalid prescribers. An earlier analysis concluded that sponsors should include a valid Drug
Enforcement Administration (DEA) number on records involving Schedule II drugs. The DEA number is
the only identifier type that indicates whether prescribers are registered to prescribe Schedule II drugs.

Several specific recommendations associated with our findings are presented below.


      Key OIG Reports                                    Specific Recommendations

Retail Pharmacies With                 Strengthen benefit integrity contractors’ monitoring of
Questionable Part D Billing.           pharmacies and their ability to identify pharmacies for further
OEI-02-09-00600. 2012 MAY.             review,

                                       require sponsors to refer potential fraud and abuse incidents that
                                       may warrant further investigation,

                                       develop risk scores for pharmacies, and

                                       follow up on the pharmacies identified as having questionable
                                       billing.


Prescribers With                       Instruct the benefit integrity contractor to expand its analysis of
Questionable Patterns in               prescribers,
Medicare Part D.
OEI-02-09-00603. 2013 JUN.             provide sponsors with additional guidance on monitoring
HHS Office of Inspector General                                                                          Page 12
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                       Specific Recommendations

                                         prescribing patterns,

                                         provide education and training for prescribers, and

                                         follow up on prescribers with questionable prescribing patterns.


Medicare Inappropriately                 Require sponsors to verify that prescribers have the authority to
Paid for Drugs Ordered by                prescribe drugs,
Individuals Without
Prescribing Authority.                   increase the benefit integrity contractor’s monitoring of
OEI-02-09-00608. 2013 JUN.               prescribers,

                                         ensure that Medicare does not pay for prescriptions from
                                         individuals without prescribing authority, and

                                         follow up on individuals without prescribing authority who
                                         ordered prescriptions.


Schedule II Drugs:                       Exclude Schedule II refills when calculating payments to sponsors,
Inappropriate Medicare
Part D Payments for Schedule             monitor sponsors to ensure they validate prescriber numbers for
II Drugs Billed as Refills.              Schedule II drugs, and
OEI-02-09-00605. 2012 SEP.
                                         follow up on sponsors and pharmacies with high numbers of
                                         refills.


Schedule II Drugs: Oversight             Implement an edit to reject PDE records for Schedule II drugs
of the Prescriber Identifier             when the prescriber ID field contains an invalid prescriber ID
Field in Prescription Drug               number and
Event Data for Schedule II
Drugs. (A-14-09-00302.                   issue specific guidance requiring sponsors to include a valid DEA
2011 FEB.                                number on both standard and nonstandard format PDE records
                                         involving Schedule II drugs.

See also:
•   2013 JUN—OIG Spotlight: Drug Diversion.

•   2013 JUN—Testimony of Gary Cantrell, Deputy Inspector General for Investigations and Stuart Wright, Deputy
    Inspector General for Evaluation and Inspections, Office of Inspector General before the Senate Committee on
    Homeland Security and Governmental Affairs. “Curbing Prescription Drug Abuse in Medicare.” (Testimony.)

•   2010 JUL—Testimony of Robert A. Vito, Acting Assistant Inspector General for Centers for Medicare & Medicaid
    Audits, before the Senate Committee on Homeland Security and Government Affairs, Subcommittee on Federal
    Financial Management, Government Information, Federal Services, and International Security. “Recovering
    Government Payment Errors.” (Testimony.) See also, Invalid Prescriber Identifiers: OEI-03-09-00140.
HHS Office of Inspector General                                                                    Page 13
Compendium of Priority Recommendations | March 2014




Medicare Quality of Care
and Safety Issues
08 Hospitals—Address adverse events in hospital settings.
The term “adverse event” describes harm to a patient as a result of medical care. We estimated that
over one-quarter of hospitalized Medicare beneficiaries were harmed during their hospital stays in
October 2008. Although we found that State agencies’ responses to serious safety allegations were
timely and often found problems, the State agencies and CMS missed opportunities to incorporate
patient safety principles into their responses. Hospitals investigated most complaints in our sample, but
State agencies performed little longer term monitoring to verify that hospitals’ corrective actions
resulted in sustained improvements.

We note that the Affordable Care Act, § 3008, provides for adjustments to Medicare hospital payments
for hospital acquired conditions; the adjustments will take effect in FY 2015. We will monitor the
implementation of the provision.


      Key OIG Reports                                      Specific Recommendations

Adverse Events in Hospitals:            Require that all Immediate Jeopardy complaint surveys evaluate
Medicare’s Responses to                 compliance with the Conditions of Participation on quality
Alleged Serious Events.                 assurance and performance improvement,
OEI-01-08-00590. 2011 OCT.
                                        ensure that State agencies monitor hospitals’ corrective actions
                                        for sustained improvements, and

                                        amend guidance on disclosure to explain the nature of complaints
                                        to hospitals.


Adverse Events in Hospitals:            The Agency for Healthcare Research and Quality (AHRQ) and CMS
National Incidence Among                should broaden patient safety efforts to include all types of
Medicare Beneficiaries.                 adverse events.
OEI-06-09-00090. 2010 NOV.
                                        AHRQ and CMS should enhance efforts to identify adverse events.


Adverse Events in Hospitals:            CMS should provide interpretive guidelines for State survey
Methods for Identifying                 agencies to assess hospital compliance to track and monitor
Events. OEI-06-08-00221.                adverse events.
2010 MAR.

See also:
•   2012 JUL—OIG Spotlight: Adverse Events in Hospitals.
HHS Office of Inspector General                                                                 Page 14
Compendium of Priority Recommendations | March 2014




09 Nursing homes—Improve care planning and discharge planning for
   beneficiaries in nursing home settings.
Medicare paid approximately $5.1 billion for a sample of 2009 stays in which SNFs did not meet quality-
of-care requirements. Our February 2013 report raised concerns about what Medicare is paying for (i.e.,
possible wasteful spending of Medicare dollars for questionable care) and demonstrated that oversight
needs to be strengthened to ensure that SNFs perform appropriate care planning and discharge
planning. We found that for 37 percent of stays, SNFs did not develop care plans that met requirements
or did not provide services in accordance with care plans. For 31 percent of stays, SNFs did not meet
discharge planning requirements. Additionally, reviewers found examples of poor quality care related to
wound care, medication management, and therapy.


       Key OIG Report                                  Specific Recommendations

Plans for Care and                    Strengthen regulations on care planning and discharge planning,
Discharge—Skilled Nursing
Facilities Often Fail To Meet         provide guidance to SNFs to improve care planning and discharge
Care Planning and Discharge           planning,
Planning Requirements.
                                      increase surveyor efforts to identify SNFs that do not meet care
OEI-02-09-00201. 2013 FEB.
                                      planning and discharge planning requirements and to hold these
                                      SNFs accountable,

                                      link payments to meeting quality of care requirements, and

                                      follow up on the SNFs that failed to meet care planning and
                                      discharge planning requirements and that provided poor quality
                                      of care.




10 Nursing homes—Address harm to patients, questionable resident
   hospitalizations, and inappropriate drug use.
There are many steps that Federal and State agencies can take to prevent harm and ensure appropriate
care in nursing homes. A February 2014 report revealed that about 33 percent of Medicare beneficiaries
experienced adverse or temporary-harm events during their SNF stays. Fifty-nine percent of the adverse
events and temporary-harm events were clearly or likely preventable and resulted, for example, from
substandard treatment, inadequate resident monitoring, and failure or delay of necessary care.

A November 2013 report found that nursing home residents went to hospitals for a wide range of
conditions, with septicemia the most common. Rates of Medicare resident hospitalizations varied
widely across nursing homes with some States having higher rates of resident hospitalizations than
others. A May 2011 report questioned safeguards against unnecessary atypical antipsychotic drugs used
for residents of nursing homes. We found that for a 6-month period in 2007, 95 percent of claims for
HHS Office of Inspector General                                                                       Page 15
Compendium of Priority Recommendations | March 2014


such drugs were for elderly nursing home residents diagnosed with conditions for which the drugs’ use
was not approved by FDA or were for residents diagnosed with dementia, the condition specified in a
Food and Drug Administration (FDA) warning about such drugs.


      Key OIG Reports                                      Specific Recommendations

Adverse Events in Skilled                 CMS should Include potential events and information about
Nursing Facilities: National              resident harm in its quality guidance to nursing homes and
Incidence Among Medicare
Beneficiaries.                            instruct nursing home surveyors to review facility practices for
OEI-06-11-00370. 2014 FEB.                identifying and reducing adverse events.

                                          AHRQ and CMS should collaborate to create and promote a list of
                                          potential nursing home events and

                                          encourage nursing homes to report adverse events to Patient
                                          Safety Organizations.


Medicare Nursing Home                     CMS should develop a quality measure that describes nursing
Resident Hospitalization Rates            home rates of resident hospitalization and
Merit Additional Monitoring.
OEI-06-11-00040. 2013 NOV.                instruct State agency surveyors to review nursing home rates of
                                          resident hospitalization as part of the survey and certification
                                          process.

Drug Utilization—Medicare                 CMS should assess whether survey and certification processes
Atypical Antipsychotic Drug               offer adequate safeguards against unnecessary antipsychotic drug
Claims for Elderly Nursing                use in nursing homes,
Home Residents.
OEI-07-08-00150. 2011 MAY.
                                          explore alternative methods for the survey and certification
                                          process to promote compliance with established Federal
                                          standards regarding unnecessary drug use in nursing homes,

                                          take appropriate action regarding the claims associated with
                                          erroneous payments identified in our sample, and

                                          facilitate access to information necessary to ensure accurate
                                          coverage and reimbursement determination.

See also:
•   2013 FEB—OIG Spotlight: Skilled Nursing Facilities.

•   2011 NOV—Testimony of Daniel R. Levinson, Inspector General, before the U.S. Senate Special Committee on
    Aging. “Overprescribed: The Human and Taxpayer Costs of Antipsychotics in Nursing Homes.” (Testimony.)

•   2011 MAY—Article by Daniel R. Levinson, Inspector General. “Overmedication of Nursing Home Patients
    Troubling.” (Article.)
HHS Office of Inspector General                                                                 Page 16
Compendium of Priority Recommendations | March 2014




11 Nursing homes—Improve emergency preparedness and response.
Our April 2012 report identified gaps in nursing home preparedness and response. Emergency plans
lacked relevant information—including only about half of the tasks on the CMS checklist. Nursing homes
faced challenges with unreliable transportation contracts, lack of collaboration with local emergency
management, and residents who developed health problems. State long-term-care ombudsmen were
often unable to support nursing home residents during disasters; most had no contact with residents
until after the disasters.


       Key OIG Report                                  Specific Recommendations

Emergency Preparedness—           Recommendations for CMS:
Gaps Continue To Exist in
Nursing Home Preparedness             CMS should revise Federal regulations by identifying and including
and Response During                   in its regulations requirements for specific elements of emergency
Disasters. OEI-06-09-00270.           plans and training,
2012 APR.
                                      update the State Operations Manual to provide detailed guidance
                                      for surveyors assessing compliance with Federal regulations for
                                      nursing home emergency planning and training,

                                      promote use of the emergency preparedness checklists for
                                      nursing homes, State long-term-care ombudsman programs and
                                      Medicaid State agencies.

                                  Recommendation for the Administration for Community Living (ACL):

                                      ACL should develop model policies and procedures to protect
                                      resident health, safety, welfare, and rights during and after
                                      disasters.

See Also:
•   2006 AUG—Nursing Home Emergency Preparedness and Response During Recent Hurricanes.
    OEI-06-06-00020.




12 Hospices—Ensure compliance with Medicare Conditions of
   Participation.
Our August 2013 report confirmed that the frequency of hospice recertification surveys had not
improved since 2005. We found that as of February 2013, 17 percent of State-surveyed hospices had not
been recertified within the preceding 6 years, with some hospices experiencing longer intervals since
their most recent survey. In 12 States, more than 25 percent of hospices had not been recertified within
the last 6 years. Such findings raise concerns about whether CMS and contracted State survey agencies
can ensure that hospices comply with Medicare Conditions of Participation and quality-of-care
HHS Office of Inspector General                                                                      Page 17
Compendium of Priority Recommendations | March 2014


requirements. Therefore, we restated the recommendation from an April 2007 report that CMS set
specific timeframes for the frequency of hospice recertification surveys.


      Key OIG Reports                                    Specific Recommendations

Medicare Hospices:                     Seek legislation or promulgate regulations to set specific
Frequency of Medicare                  timeframes for the frequency of hospice recertification surveys.
Recertification Surveys for            (This is a followup reiteration of the action recommended in the
Hospices Is Unimproved.                2007 report below.)
OEI-06-13-00130. 2013 AUG.

Medicare Hospices:                     Seek regulatory or statutory change to establish specific
Certfication and CMS                   requirements for the frequency of hospice certification.
Oversight. OEI-06-05-00260.
2007 APR.



Medicaid Program
Policies and Payments
13 Federal share of Medicaid—Ensure that State claims and practices
   do not inappropriately inflate Federal reimbursements.
The Federal Government and States share the cost of Medicaid. From time to time, States have
developed mechanisms to obtain Federal Medicaid funds without committing the States’ shares of
required matching funds or by other means artificially inflating the Federal share. Such practices limit
Congress’s ability to assess the public benefits of Medicaid dollars. OIG addressed this issue broadly in
an audit in 2001, and since then, we have continued to identify similar problems in selected States.

For example, Medicaid permits States to provide enhanced payments that qualify for Federal
reimbursement to non-State-owned government providers, such as county or local publicly owned
nursing facilities and hospitals. But some States have required such facilities to transfer the funds to the
States to be put to other uses, leaving the facilities underfunded. Another example is the misalignment
of costs and payments at certain State-operated facilities in New York in which the Medicaid rate grew to
the equivalent of $1.5 million per year per Medicaid beneficiary, artificially inflating the Federal share.


       Key OIG Report                                    Specific Recommendations

Payments to Public                     Provide States with definitive guidance for calculating the Federal
Providers— Review of                   upper payment limit (UPL), which should include using facility-
Medicaid Enhanced Payments             specific UPLs that are based on actual cost report data and
to Local Public Providers and
the Use of Intergovernmental           require that the return of Medicaid payments by a county or local
Transfers. A-03-00-00216.              government to the State be declared a refund of those payments
HHS Office of Inspector General                                                                         Page 18
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                      Specific Recommendations

2001 SEP.                               and thus be used to offset the Federal share generated by the
                                        original payment.

See also:
•   2014 MAR—Medicaid Rates for Residential Habilitation Services Provided at New York State-Operated
    Residences Are Excessive. A-02-13-01008.

•   2014 JAN—New York State Made Unallowable Medicaid Fee-for-Service Payments for Beneficiaries Also
    Enrolled in Medicaid Managed Care. A-02-12-01007.

•   2013 APR—New York State Made Unallowable Medicaid Managed Care Payments for Beneficiaries Assigned
    Multiple Medicaid Identification Numbers. A-02-11-01006.

•   2012 SEP—Testimony of John Hagg, Director of Medicaid Audits, before the Subcommittee on Government
    Organization, Efficiency and Financial Management; and Subcommittee on Health Care, District of Columbia,
    Census and the National Archives of the House Committee on Oversight and Government Reform. “Medicaid
    Payment Rates for New York State-Operated Developmental Centers.” (Testimony.)

•   2012 MAY—Medicaid Rates for New York State-Operated Developmental Centers May Be Excessive.
    A-02-11-01029.

•   2005 JUN—Office of Inspector General Testimony Before the Senate Committee on Finance. “Financing
    Mechanisms To Shift the Cost of Medicaid to the Federal Government Contrary to Federal and State Sharing
    Formulas.” (Testimony.)



14 Improper payments—Ensure that States prevent, detect, and
   recover improper payments and return the Federal share of
   recoveries to the Federal Government.
Medicaid payments for services for which third-parties are liable.
Millions of Medicaid beneficiaries have additional health insurance through third-party sources, such as
Medicare, TRICARE, or other payers. If beneficiaries have another source of payment, that source should
pay before Medicaid does, up to the extent of its liability. States reported longstanding challenges with
third parties when trying to identify insurance coverage and recover payments. In addition, States
reported challenges—caused, they say, by laws and regulations—that hinder the recovery of payments.

The Consolidated Appropriations Act, 2014 enacted stronger third-party liability rules for Medicaid,
which is likely to have changed the reported estimate of third-party liability overpayments at risk of not
being recovered. We will monitor CMS’s implementation of the provision.
HHS Office of Inspector General                                                                     Page 19
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                   Specific Recommendations

Medicaid Third-Party Liability        CMS should work with States to address longstanding challenges
Savings Increased, But                working with third parties to identify insurance coverage and
Challenges Remain.                    recover payments.
OEI-05-11-00130. 2013 JAN.
                                      address States’ challenges with 1-year timely filing limits for
                                      Medicare and TRICARE, and

                                      strengthen enforcement mechanisms designed to deal with
                                      uncooperative third parties.

See also:
•   2001 AUG—Medicaid Recovery of Pharmacy Payments From Liable Third Parties. OEI-03-00-00030


Personal care services overpayments.
In 2011, Medicaid costs for personal care services (PCS) were about $12.7 billion, a 35-percent increase
from 2005. OIG has issued more than 20 reports in recent years about Medicaid PCS payments. We
found that improper payments for PCS occurred because the services were not provided in compliance
with State requirements, were unsupported by documentation indicating they had been rendered, were
provided during periods in which the beneficiaries were in institutional stays reimbursed by Medicare or
Medicaid, and/or were provided by PCS attendants who did not meet State qualification requirements.


       Key OIG Report                                   Specific Recommendations

Personal Care Services                Issue guidance to States regarding adequate prepayment controls,
Portfolio—Trends,
Vulnerabilities, and                  consider whether additional controls are needed to ensure that
Recommendations for                   PCS are allowed under program rules and are provided, and
Improvement. OIG 12-12-01.
                                      take action to provide States with data suitable for identifying
2012 NOV.
                                      overpayments for PCS claims during periods when beneficiaries
                                      are receiving institutional care paid for by Medicare or Medicaid.

See also:
•   2012 NOV—OIG Spotlight: Personal Care Services Overpayments.



OIG-identified overpayments.
As of December 2012, CMS had not collected $225.6 million of $1.2 billion in Medicaid overpayments to
States that OIG had identified. When CMS concurs with a recommendation to collect overpayments, it
may sustain (agree to collect or offset) either the entire amount or a different amount. If the overpaid
State agrees in writing with OIG or CMS to refund the overpayment, the State should refund it to the
HHS Office of Inspector General                                                                  Page 20
Compendium of Priority Recommendations | March 2014


Federal Government. If the State does not agree, CMS should follow other procedures to resolve the
OIG recommendations.


       Key OIG Report                                 Specific Recommendations

Medicaid overpayments—The            Review and address delays in resolving OIG audit
Centers for Medicare &               recommendations and promptly pursue corrective actions,
Medicaid Services Collected
the Majority of Medicaid             maintain adequate documentation to support the collection of
Overpayments but Millions            overpayments in accordance with Office of Management and
Remain Uncollected.                  Budget (OMB) Circular A-50 and CMS Standard Operating
A-05-11-00071. 2013 FEB.             Procedures,

                                     educate the States about their responsibility to report
                                     overpayments on the correct line of the CMS-64 to improve
                                     oversight of the reporting process, and

                                     collect the remaining $225.6 million we identified as due the
                                     Federal Government.



15 Medicaid drug pricing—Assist States to better align drug
   reimbursements with pharmacy acquisition costs.
OIG has conducted several reviews that explored the relationships between three recognized drug
pricing benchmarks—the average wholesale price (AWP), wholesale acquisition costs (WAC), and
average manufacturer price (AMP)—and pharmacy invoice prices (acquisition costs) for Medicaid-
reimbursed drugs. We concluded that States may be able to better approximate the invoice prices of
drugs by developing different reimbursement methodologies for single-source drugs, brand-name
multiple-source drugs, and generic multiple-source drugs.


      Key OIG Reports                                 Specific Recommendations

Review of Drug Costs to              Provide the results of this review to States for their use when they
Medicaid Pharmacies and              consider changes to their pharmacy reimbursement
Their Relation to Benchmark          methodologies, including those for single-source drugs, brand-
Prices. A-06-11-00002.               name multiple-source drugs, and generic multiple-source drugs.
2011 OCT.

Replacing Average Wholesale          Develop a national benchmark that accurately estimates
Price: Medicaid Drug                 acquisition costs and encourage States to use it in determining
Payment Policy.                      Medicaid reimbursement for prescription drugs.
OEI-03-11-00060. 2011 JUL.

36Additional Analyses of the         Encourage States to adopt a multitiered payment system to bring
Actual Acquisition Cost of           pharmacy reimbursement more in line with the actual acquisition
HHS Office of Inspector General                                                                        Page 21
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                      Specific Recommendations

Prescription Drug Products.             cost of drug products.
A-06-02-00041. 2002 SEP.




16 Ensure that Medicaid Information Systems are fully functional.
Transformed Medicaid Statistical Information System (T-MSIS).
The Medicaid Statistical Information System (MSIS) is Medicaid’s only nationwide Medicaid eligibility and
claims database. The “transformed MSIS” (T-MSIS) is a continuation of CMS’s past attempts to improve
the nationally available data. Our September 2013 report raised concerns about States’ abilities to
submit complete and accurate data to the T-MSIS. Evidence from our review indicates continued
problems with completeness, accuracy, and other issues. The early outcomes of volunteer States’ efforts
to implement T-MSIS may also provide insight into the remaining 39 States’ abilities to implement
T-MSIS. The data are intended for use in analytical research, program integrity, planning, budgeting, and
policy analyses associated with Medicaid. Prior reviews also identified problems with missing or
outdated data that made MSIS an inadequate tool for national Medicaid program integrity data analysis
strategies.


       Key OIG Report                                      Specific Recommendations

Early Outcomes Show Limited             Establish a deadline for when national T-MSIS data will be
Progress for the Transformed            available,
Medicaid Statistical
Information System.                     ensure that States submit required T-MSIS data, and
OEI-05-12-00610. 2013 SEP.
                                        ensure that T-MSIS data are complete, accurate, and timely upon
                                        T-MSIS implementation.

See also:
•   2014 MAR—High-Risk Security Vulnerabilities Identified During Reviews of Information Technology General
    Controls at State Medicaid Agencies. A-07-14-00433.

•   2012 JUN— Testimony of Ann Maxwell, Regional Inspector General for Evaluation and Inspections, before the
    U.S. Senate Committee on Homeland Security and Governmental Affairs Subcommittee on Federal Financial
    Management, Government Information, Federal Services, and International Security. Saving Taxpayer Dollars
    by Curbing Waste and Fraud in Medicaid. (Testimony.)

•   2012 JUN—Testimony of Ann Maxwell, Regional Inspector General for Evaluation and Inspections, before the
    House Committee on Oversight and Government Reform Subcommittee on Government Organization,
    Efficiency and Financial Management. (Testimony.)

•   2012 APR—The Medicare-Medicaid (Medi-Medi) Data Match Program. OEI-09-08-00370.
HHS Office of Inspector General                                                                        Page 22
Compendium of Priority Recommendations | March 2014


•   2012 MAR— Early Assessment of Audit Medicaid Integrity Contractors. OEI-05-10-00210.

•   2012 FEB—Medicaid. Early Assessment of Review Medicaid Integrity Contractors. OEI-05-10-00200.

•   2009 AUG—MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse, OEI-04-07-00240.

Medicaid managed care encounter data.
Encounter data are the primary records of Medicaid services provided to beneficiaries enrolled in
capitated Medicaid managed care. At the time of our review, CMS had no graduated sanctions or
penalties against States that do not fully comply with MSIS reporting requirements. The absence of
encounter data from States with Medicaid managed care limits the usefulness of the MSIS. The
implementation of T-MSIS may not address the underlying problems causing the lack of encounter data
reported to MSIS.

Section 6402(c) of the Patient Protection and Affordable Care Act (Affordable Care Act) authorizes the
Secretary to withhold the Federal matching payment for States that fail to report enrollee encounter
data in the MSIS. We are monitoring CMS’s efforts in the implementation of its actions and
promulgation of Federal regulations regarding section 6402(c).


       Key OIG Report                                      Specific Recommendation

Medicaid Managed Care                   Enforce existing Federal requirements that States include
Encounter Data: Collection              encounter data in MSIS submissions.
and Use. OEI-07-06-00540.
2009 MAY.




17 Address Medicaid managed care fraud and abuse concerns.
As of June 2009, 72 percent of all Medicaid beneficiaries were enrolled in managed care. We asked
Medicaid managed care entities (MCEs), States, and CMS to identify their major concerns regarding
fraud and abuse. The primary concern centered on providers billing for services not rendered. Other
concerns included providers rendering services that are not medically necessary and billing for higher
levels of services than were provided (upcoding); questionable beneficiary eligibility; and prescription
drug abuse by beneficiaries.

In addition to their fee-for-service programs, States may contract with different types of MCEs 2 to
provide health care services on a statewide or a community basis. Managed care’s capitated payments
create incentives for providers to render fewer services to beneficiaries and States must bear financial
risk that could threaten the viability of their Medicaid managed care programs.




2
 Two types of MCEs are subject to specific Federal program integrity requirements: Managed Care Organizations
(MCOs) and Prepaid Inpatient Health Plans (PIHPs).
HHS Office of Inspector General                                                                    Page 23
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                    Specific Recommendations

Medicaid Managed Care:                 Require that State contracts with MCEs include methods to verify
Fraud and Abuse Concerns               with beneficiaries whether services billed by providers were
Remain Despite Safeguards.             received and
OEI-01-09-00550. 2011 DEC.
                                       update guidance to reflect concerns expressed by MCEs and
                                       States.



Medicaid Quality of Care
and Safety Issues

18 Medicaid home- and community-based care settings—Ensure that
   service providers comply with quality and safety requirements.
Quality of care assurances associated with waiver programs.
States are now providing more care in homes and other community-based settings. States most often
provide this care through home and community-based services (HCBS) waiver programs. (Social Security
Act, § 1915(c).) In fiscal year (FY) 2010, Medicaid expenditures for HCBS waiver programs were estimated
at $8.9 billion. In June 2012, we reported that 7 of 25 States we reviewed did not have adequate
systems to ensure the quality of care provided to beneficiaries. Also, CMS did not consistently use the
few tools it has to ensure that States correct problems related to quality of care. In December 2012, we
reported that assisted living facilities in 7 selected States did not always comply with federally mandated
standards and patient plans of care did not always meet requirements. CMS is responsible for
determining whether State Medicaid programs comply with the Federal requirements for covering HCBS
under section 1915(c) waivers.


      Key OIG Reports                                    Specific Recommendations

Medicaid—Oversight of                  Provide additional guidance to states to help ensure that they
Quality of Care in Medicaid            meet the assurances,
Home- and Community-Based
Services Waiver Programs.              require states that do not meet one or more assurances to
OEI-02-08-00170. 2012 JUN.             develop corrective action plans,

                                       require at least one onsite visit before a waiver program is
                                       renewed and develop detailed protocols for such visits, and

                                       make information about state compliance with the assurances
HHS Office of Inspector General                                                                    Page 24
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                   Specific Recommendations

                                      available to the public.


Home and Community-Based              Issue guidance to State Medicaid programs emphasizing the need
Services in Assisted Living           to comply with Federal requirements for covering HCBS under
Facilities. OEI-09-08-00360.          section 1915(c) waivers.
2012 DEC.


Personal care services—Attendant qualifications and supervision.
A November 2012 OIG Portfolio summarized our body of work pertaining to PCS. With regard to quality
of care and beneficiary safety, our work demonstrated that existing program safeguards intended to
ensure medical necessity, patient safety, and quality were often ineffective. We found inconsistent
standards for, and monitoring of, the qualifications of PCS attendants and problematic billing practices
(e.g., claims that lack details regarding dates of service and/or the identity of the PCS attendants
providing services). PCS consist of nonmedical services supporting activities of daily living, including
bathing, dressing, light housework, money management, meal preparation, and transportation.
Typically, attendants provide PCS. In many States, PCS attendants work for personal care agencies, which
are enrolled in the Medicaid program and bill for services on the attendants’ behalf.


       Key OIG Report                                   Specific Recommendations

Medicaid—Personal Care                Establish minimum Federal PCS attendant qualification standards
Services Portfolio—Trends,            applicable to all PCS reimbursed by Medicaid,
Vulnerabilities, and
Recommendations for                   require States to either enroll all PCS attendants as providers or
Improvement.                          require all PCS attendants to register with their State Medicaid
OIG 12-12-01. 2012 NOV.               agencies and assign each attendant a unique identifier,

                                      require that PCS claims include the specific date(s) when services
                                      were performed and the identity of the rendering PCS attendants,
                                      and

                                      issue operational guidance for claims documentation, beneficiary
                                      assessments, plans of care, and supervision of attendants.
HHS Office of Inspector General                                                                      Page 25
Compendium of Priority Recommendations | March 2014




19 Prevention—Ensure that States improve utilization of preventive
   screening services for eligible children.
Medicaid provides a comprehensive and preventive child health benefit for children under the age of 21,
known as the Early and Periodic Screening, Diagnostic, and Treatment (EPSDT) benefit. Services are
intended to screen, diagnose, and treat children eligible for EPSDT services at early, regular intervals to
avoid or minimize childhood illness. Our review focused on medical, vision, and hearing screenings.

We found that very few children received the correct number of complete medical screenings or the
correct number of vision and hearing screenings. While all States reported strategies to improve both
the number of screenings and the completeness of medical screenings, these strategies do not appear to
have had the desired effect. The disconnect between States’ efforts to improve the EPSDT program and
the low number of children receiving required screenings is difficult to account for, but indicates that
additional efforts are needed.


       Key OIG Report                                     Specific Recommendations

Most Medicaid Children in               CMS should require States to report vision and hearing
Nine States Are Not Receiving           screenings,
All Required Preventive
Screening Services.                     collaborate with States and providers to develop effective
OEI-05-08-00520. 2010 MAY.              strategies to encourage beneficiary participation in screenings,

                                        collaborate with States and providers to develop education and
                                        incentives for providers to encourage complete medical
                                        screenings, and

                                        identify and disseminate promising State practices for increasing
                                        children’s participation in screenings and providers’ delivery of
                                        complete medical screenings.



Oversight of Food Safety
20 Improve oversight of dietary supplements
Under Federal law, FDA does not test or approve dietary supplements prior to sale. The first of two
October 2012 reports demonstrated the extent to which supplement manufacturers’ substantiation of
their claims about the structure and function of the supplements fell short of meeting FDA’s
recommendations for competent and reliable evidence and revealed problems with FDA’s notification
process. The second report revealed that 28 percent of contacted companies had facilities that failed to
register with FDA, as required. Of those that did register, 72 percent failed to provide all the information
required, raising questions about FDA’s ability to identify and contact manufacturers in an emergency.
HHS Office of Inspector General                                                                     Page 26
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                    Specific Recommendations

Dietary Supplements:                   FDA should seek statutory authority to review substantiation for
Structure/Function Claims Fail         structure/function claims to determine whether claims are
To Meet Federal                        truthful and not misleading,
Requirements.
OEI-01-11-00210. 2012 OCT.             improve the notification system to make it more organized,
                                       complete, and accurate, and

                                       expand market surveillance of dietary supplements to enforce the
                                       use of disclaimers for structure/function claims and detect
                                       disease claims.


Dietary Supplements:                   FDA should improve the accuracy of the information in its Food
Companies May Be Difficult             Facility Registry,
To Locate in an Emergency.
OEI-01-11-00211. 2012 OCT.             seek statutory authority to impose civil monetary penalties on
                                       companies that do not comply with registration requirements,
                                       and

                                       educate the dietary supplement industry about registration and
                                       labeling requirements.



21 Improve oversight of food inspections and traceability.
State and FDA inspections of food facilities.
In addition to conducting its own inspections of food facilities, FDA relies on State agencies to conduct
inspections on its behalf; however, in recent years, concerns have been raised about the rigor of these
State inspections. We found instances in which FDA failed to ensure that the required number of
inspections was completed; it paid for many inspections that were incomplete; it did not ensure that all
State inspections were properly classified and that all violations were remedied; it failed to complete the
required number of audits for one-third of the States; and it did not always follow up on systemic
problems identified.

In a review of FDA’s own inspections, we found that for 54 percent of violations designated as official
action indicated (OAI), FDA either lowered the classification or took no action. FDA did not reinspect
36 percent of OAI facilities within a year. Nor did FDA review evidence of corrective action.


      Key OIG Reports                                    Specific Recommendations

Food Safety—Vulnerabilities            FDA should ensure that all contract inspections are completed,
In FDA’s Oversight of State            properly documented, and appropriately paid for;
Food Facility Inspections.
HHS Office of Inspector General                                                                        Page 27
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                     Specific Recommendations

OEI-02-09-00430. 2011 DEC.              ensure that contract inspections are properly classified in
                                        accordance with FDA guidance;

                                        ensure that all inspection violations are remedied by routinely
                                        tracking all actions taken to correct violations;

                                        ensure that the minimum audit rate is met in all States; and

                                        address any systemic problems identified by audits.


Food Safety—FDA Inspections             FDA should provide additional guidance about when it is
of Domestic Food Facilities.            appropriate to lower OAI classifications;
OEI-02-08-00080. 2010 APR.
                                        take appropriate actions against facilities with OAI classifications;

                                        ensure that violations are corrected for all facilities that receive
                                        OAI classifications, particularly those that have histories of
                                        violations; and

                                        consider seeking statutory authority to impose civil penalties
                                        through administrative proceedings against facilities that do not
                                        voluntarily comply with statutory and regulatory requirements.

See Also:
•   2010 May—Testimony of Jodi Nudelman, Regional Inspector General for Evaluation and Inspections, before the
    House Committee on Energy and Commerce, Subcommittee on Oversight and Investigations. “ FDA’s Role in
    Protecting the Nation’s Food Supply.” (Testimony)


Traceability in the food supply chain.
In a food emergency, information about traceability of food products and the ability of food facilities to
provide information about their sources, recipients, and transporters allows FDA to identify the source
of contamination and help remove unsafe food products from retail shelves. In a March 2009 report,
our findings included that 59 percent of the food facilities in our traceability exercise did not meet FDA’s
requirements to maintain records about their sources, recipients, and transporters. We also found that
one-quarter of the food facilities were not aware of FDA’s records requirements, whereas others
highlighted practices designed to improve traceability.

A December 2009 report examined whether selected facilities registered with FDA as required and
whether information in FDA’s registry was complete and accurate. We found that while most facilities
registered, almost half did not provide accurate information and certain useful information that is
optional. Over half the facilities were unaware of FDA’s registry requirements.
HHS Office of Inspector General                                                                     Page 28
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                    Specific Recommendations

Food Safety—Traceability in            FDA should address issues related to mixing raw food products
the Food Supply Chain.                 from a large number of farms,
OEI-02-06-00210. 2009 MAR.
                                       seek statutory authority to conduct activities to ensure that
                                       facilities are complying with records requirements,

                                       conduct education and outreach activities to inform the food
                                       industry about records requirements, and

                                       work with the food industry to develop additional guidance to
                                       strengthen traceability.

Food Safety—FDA’s Food                 FDA should consider seeking statutory authority to impose civil
Facility Registry.                     penalties through administrative proceedings against facilities
OEI-02-08-00060. 2009 DEC.             that do not comply with the registry requirements and

                                       work with the food industry to increase facilities’ awareness of
                                       the registry requirements.

See also:
•   2009 MAR—Testimony of Daniel R. Levinson, Inspector General before the House Committee on Appropriations
    Subcommittee on Agriculture, Rural Development, Food and Drug Administration, and Related Agencies.
    Traceability of the Food Supply. (Testimony.)




HHS Grants and Contracts
22 Grants—Improve oversight of grantee compliance, quality
   assurance, and conflicts of interest.
In FY 2012, the Department of Health and Human Services (HHS) awarded 81,000 grants for a combined
$347 billion. Of these, about 80,000, totaling about $90 billion, were for programs other than Medicare
and Medicaid. In addition to ongoing grant programs, there are a number of time-limited special
purpose grant programs and some, such as the Recovery Act grants, that also supplement ongoing
programs. The following are priority reports with open recommendations for corrective action that
represent significant immediate opportunities to improve grant management and performance at HHS.

ACF grantee health and safety standards and requirements for
participation.
The Administration for Children and Families (ACF) administers the Child Care and Development Fund
(CCDF) grant program, which provides financial assistance with child care for approximately 1.6 million
children each month. In November 2013, we reported that States’ monitoring requirements did not
always meet ACF’s recommendations for background screenings or the recommended standards for
HHS Office of Inspector General                                                                     Page 29
Compendium of Priority Recommendations | March 2014


unannounced inspections. In some States, monitoring of licensed providers was not conducted in
accordance with the States’ own requirements. Moreover, ACF did little to monitor how States were
overseeing CCDF providers. Similarly, in December 2011, we reported that of the 24 Head Start program
grantees we reviewed, none complied fully with Federal Head Start or State requirements to protect
children from unsafe materials and equipment, and 21 of 24 grantees did not comply fully with Federal
Head Start or State requirements to conduct criminal records checks, conduct recurring background
checks, document criminal records checks, conduct checks of childcare exclusion lists, or conduct checks
of child abuse and neglect registries.


      Key OIG Reports                                       Specific Recommendations

Child Care and Development             ACF should seek authority to develop health and safety standards
Fund. Monitoring of Licensed           and to ensure that States’ requirements meet them,
Child Care Providers.
OEI-07-10-00230. 2013 NOV.             develop requirements for States to conduct mandatory
                                       background screenings,

                                       develop requirements for States to conduct periodic
                                       unannounced inspections,

                                       conduct periodic reviews of States’ compliance with their own
                                       requirements related to minimum health and safety standards
                                       [applicable to licensed child care providers], and

                                       ensure that State plans comply with health and safety
                                       requirements and take action when States do not comply.


Head Start—Review of                   ACF should ensure through onsite monitoring that Head Start
24 Head Start Grantees'                grantees comply with health and safety regulations;
Compliance With Health and
Safety Requirements.                   perform an analysis to determine whether HHS should seek a
 A-01-11-02503. 2011 DEC.              legislative amendment of Federal health and safety requirements
                                       that would require periodic background checks for all Head Start
                                       employees; and

                                       amend current policy and regulations to require that any
                                       prospective or current employee be disqualified for or terminated
                                       from employment with a Head Start grantee if the individual has
                                       been convicted of sexual abuse of a child, other forms of child
                                       abuse and neglect, or a violent felony.


See Also:
•   2011 DEC—OIG Spotlight: Head Start Health and Safety.

•   2011 NOV—Review of 83 Early Head Start Applicants Under the American Recovery and Reinvestment Act.
    A-01-10-02501.
HHS Office of Inspector General                                                                       Page 30
Compendium of Priority Recommendations | March 2014



HRSA grantee quality assurance programs.
Health centers funded by Health Resources and Services Administration ( HRSA) grants provide care to
patients in medically underserved urban or rural areas or in medically underserved populations.
Improving quality assessments and documentation requirements would help ensure the value of the
services received. In March 2012, we reported that almost all health centers we reviewed had quality
assurance programs, and health services were appropriate for most health center patients. However,
insufficient documentation prevented detailed assessments of some medical records. HRSA’s oversight
and review activities provided only limited information about the extent to which individual health
center patients received required primary health services. Although HRSA’s requirements specify which
services health centers must make available to patients, they do not establish specific quality standards
for the services.


       Key OIG Report                                     Specific Recommendations

Health Centers—Quality                  HRSA should provide more specific guidance about what health
Assurance and Care Provided             center grantees should address in their quality assurance
at HRSA-Funded Health                   programs and how they should conduct their periodic
Centers. OEI-09-06-00420.               assessments,
2012 MAR.
                                        provide more specific guidance concerning what information is
                                        required in patient records at health centers,

                                        provide more specificity about the required primary health
                                        services, and

                                        establish procedures to independently assess patients’ receipt of
                                        primary health services and the adequacy of patients’ records.


NIH grantee conflicts of interest.
Grantee institutions consist of universities, medical schools, and other research institutions (e.g., private
or nonprofit research organizations) receiving research grants from the National Institutes of Health
(NIH). An institutional conflict may arise when an institution’s own financial interests (e.g., royalties,
equity, stockholdings, and gifts) or those of its senior officials pose a risk of undue influence on decisions
involving the institution’s research. Currently, no Federal regulations require grantee institutions to
identify and report institutional conflicts to NIH. Therefore, NIH lacks information on the number of
institutional conflicts that exist among its grantee institutions and the impact these conflicts may have
on NIH-sponsored research. Our January 2011 report encourages NIH to ensure that related research is
free from any intended or unintended bias.

With regard to researchers’ financial interests, a November 2009 report revealed that the most common
type of financial conflict of interest among NIH-funded researchers is equity ownership (including stock
and stock options) in companies in which the researchers’ financial interests could significantly affect the
grant research. Other conflicts involved researchers inventing technology, consulting, or holding
positions with outside companies. Our recommendations are to NIH.
HHS Office of Inspector General                                                                     Page 31
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                    Specific Recommendations

Institutional Conflicts of             NIH should promulgate regulations that address institutional
Interest at NIH Grantees.              financial conflicts of interest.
OEI-03-09-00480. 2011 JAN.

Review of How Grantees                 NIH should develop and disseminate guidance on methods to
Manage Financial Conflicts of          verify researchers’ financial interests,
Interest in Research Funded
by the National Institutes of          ensure that grantee institutions are providing adequate oversight
Health. OEI-03-07-00700.               of subgrantee compliance with Federal financial conflicts of
2009 NOV.                              interest regulations,

                                       ensure that grantee institutions are maintaining proper
                                       documentation as outlined in the Federal financial conflict of
                                       interest regulations,

                                       ensure that grantee institutions take appropriate actions against
                                       researchers who do not follow grantee institutions’ financial
                                       conflict-of-interest policies and procedures, and

                                       develop regulations that address institutional financial conflicts of
                                       interest.




23 Contracts—Improve oversight of Medicare contractor performance
   and conflicts of interest.
CMS relies on contractors to administer the Medicare program and is responsible for overseeing the
contractors’ performance. Medicare contractors are responsible for administering more than a
half-trillion dollars in benefits each year. MACs process Parts A and B claims; Medicare Advantage (MA)
plans provide managed care services under Part C; Part D plans provide prescription drug coverage
under Part D; and various benefit integrity contractors serve to protect Medicare from fraud, waste, and
abuse.

Medicare contractor performance.
Regardless of the types of Medicare contractors, there are common issues that limit CMS’s oversight of
their performance. CMS has not leveraged contractor-reported data to improve oversight; has not
investigated variation in data across contractors to determine underlying causes, especially when it is not
explained by the size or geographical jurisdiction of contractors; has not addressed underperforming
contractors timely and required corrective actions for all performance standards that were not met; and
has not shared information with beneficiaries and other stakeholders that could assist antifraud efforts.
HHS Office of Inspector General                                                                  Page 32
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                 Specific Recommendations

Part A and Part B. Medicare          CMS should seek a legislative change to increase the time
Administrative Contractors'          between MAC contract competitions to give CMS more flexibility
Performance.                         in awarding new contracts when MACs are not meeting CMS
OEI-03-11-00740. 2014 JAN.           requirements,

                                     require action plans for all unmet quality assurance standards,

                                     use quality assurance review results to help select award fee
                                     metrics for review and to establish award fee metrics for the
                                     “Medicare secondary payer” area,

                                     meet timeframes for completing draft and final quality assurance
                                     summary reports,

                                     meet timeframes for completing award fee determinations, and

                                     establish reasonable timeframes for issuing final contractor
                                     performance reports.


Part A and Part B. Over Four         CMS should provide guidance to claims processors about handling
Million Medicare Summary             [for program integrity purposes] Medicare Summary Notices
Notices Mailed to                    (MSNs) that are returned as undeliverable and
Beneficiaries Were Not
Delivered in 2012.                   ensure that the address information used by claims processors to
OEI-03-12-00600. 2014 JAN.           print addresses on MSNs is complete and properly formatted.


Part A and Part B. Medicare          CMS should take action, as appropriate, on vulnerabilities that are
Recovery Audit Contractors           pending corrective action and evaluate the effectiveness of
and CMS’s Actions To Address         implemented corrective actions,
Improper Payments, Referrals
of Potential Fraud, and              ensure that Recovery Audit Contractors (RACs) refer all
Performance.                         appropriate cases of potential fraud,
OEI-04-11-00680. 2013 SEP.
                                     review and take appropriate, timely action on RAC referrals of
                                     potential fraud, and

                                     develop additional performance evaluation metrics to improve
                                     RAC performance and ensure that RACs are evaluated on contract
                                     requirements.


Part A and Part B. Zone              CMS should clarify the workload definitions in the CMS Analysis,
Program Integrity                    Reporting, and Tracking System (CMS ARTS) to ensure that ZPICs’
Contractors' Data Issues             workload statistics are accurate and that ZPICs report their data
Hinder Effective Oversight.
HHS Office of Inspector General                                                                           Page 33
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                      Specific Recommendations

OEI-03-09-00520. 2011 NOV.               uniformly,

                                         utilize and report Zone Program Integrity Contractors’ (ZPICs’)
                                         workload statistics in ZPIC evaluations, and

                                         ensure that ZPICs have access to all data necessary to effectively
                                         carry out their program integrity activities.


Part C. CMS Regularly                    CMS should determine whether outlier data values submitted by
Reviews Part C Reporting                 MA organizations reflect inaccurate reporting or atypical
Requirements Data, But Its               performance,
Followup and Use of the Data
Are Limited.                             use appropriate Part C reporting requirements data as part of its
OEI-03-11-00720. 2014 MAR.               reviews of MA organizations’ performance, and

                                         establish a timeline for releasing public use files for Part C
                                         reporting requirements data.


Part D. Less Than Half of                CMS should amend regulations to require sponsors to report to
Part D Sponsors Voluntarily              CMS their identification of and response to incidents of potential
Reported Data on Potential               fraud and abuse;
Fraud and Abuse.
OEI-03-13-00030. 2014 MAR.               provide sponsors with specific guidelines on how to define and
                                         count incidents, related inquiries, and corrective actions;

                                         review data to determine why certain sponsors reported
                                         especially high or low numbers of incidents, related inquiries, and
                                         corrective actions; and

                                         share sponsors’ data on potential fraud and abuse with all
                                         sponsors and law enforcement.


See Also:
•   2014 MAR— Testimony of Robert A. Vito, Regional Inspector General for Evaluation and Inspections, before
    the House Committee on Energy and Commerce Subcommittee on Health. “How Better Managing Medicare
    Can Protect Seniors.” (Testimony.)

•   2012 JUN—Testimony of Robert A. Vito, Regional Inspector General for Evaluation and Inspections, before the
    Subcommittee on Oversight and Investigations of the House Committee on Energy and Commerce. “Medicare
    Contractors' Efforts To Fight Fraud.” (Testimony.)
HHS Office of Inspector General                                                                      Page 34
Compendium of Priority Recommendations | March 2014



Medicare contractor conflicts of interest.
With regard to ZPICs, CMS does not have a written policy for reviewing conflict and financial interest
information submitted by offerors. We found that the submitted information was not always consistent
or complete. Some offerors and subcontractors failed to provide all the requisite information regarding
financial interests in other entities. With regard to Part D, conflicts of interest could result in
inappropriately higher costs. Sponsors’ Pharmacy and Therapeutics (P&T) committees make prescription
drug coverage decisions on the basis of scientific evidence and standards of practice. Such decisions
affect beneficiaries’ access to specific prescription drugs and the cost of drugs to beneficiaries and the
Federal Government.


       Key OIG Report                                    Specific Recommendations

Medicare Part A and Part B.            CMS should provide clearer guidance in the requests for proposal
Conflicts and Financial                to offerors and subcontractors regarding which business and
Relationships Among                    contractual relationships should be identified as actual conflicts
Potential Zone Program                 and which should be identified as possible conflicts;
Integrity Contractors.
OEI-03-10-00300. 2012 JUL.             require offerors and subcontractors to distinguish those business
                                       and contractual relationships that they deem to be actual conflicts
                                       from those that are possible conflicts (i.e., apparent or potential
                                       conflicts) in their organizational conflict of interest;

                                       state whether offerors and subcontractors need to report income
                                       amounts, periods of performance, and types of work performed
                                       for their contracts with CMS and income amounts generated from
                                       key personnel’s other employment;

                                       create a standardized format for reporting information in the
                                       organizational conflict-of-interest certificate and require its use by
                                       offerors and subcontractors; and

                                       develop a formal, written policy outlining how organization
                                       conflict-of-interest certificates are to be reviewed by CMS.


Medicare Part D. Gaps in               CMS should define Pharmacy Benefit Managers (PBM) as entities
Oversight of Conflicts of              that could benefit from formulary decisions.
Interest in Medicare
Prescription Drug Decisions.           establish minimum standards requiring sponsors to ensure that
OEI-05-10-00450. 2013 MAR.             safeguards are established to prevent improprieties related to
                                       employment by the entity that maintains the P&T committee,

                                       establish minimum standards requiring sponsors to ensure that an
                                       objective process is used to determine whether disclosed financial
                                       interests are conflicts .
HHS Office of Inspector General                                                                   Page 35
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                   Specific Recommendations

                                       establish minimum standards requiring sponsors to ensure that an
                                       objective process is used to manage recusals due to conflicts of
                                       interest and

                                       oversee compliance with P&T committee conflict-of-interest
                                       requirements and guidance



HHS Financial Stewardship

24 Reduce improper payments and fraud.
An improper payment is one that should not have been made or that was made in an incorrect amount
(either an overpayment or an underpayment). While most improper payments are caused by error, some
are caused by fraud or other abusive billing practices. To improve accountability of Federal agencies’
administration of funds, the Improper Payments Information Act of 2002 (IPIA) requires agencies to
annually report to the President and Congress on the agencies’ improper payments. CMS established
the Comprehensive Error Rate Testing (CERT) program to produce a national Medicare fee-for-service
(FFS) error rate. To reduce Medicare’s error rate, CMS requires claims administration contractors to
submit error rate reduction plans.

We note that regarding the Children’s Health Insurance Program (CHIP) recommendations below, HHS
said that HHS received State-specific corrective action plans (CAPs) from all States whose CHIP programs
were measured and reported in FY 2012 as a part of calculating the error rate for FY 2013, and all States
measured in FY 2013 are in the process of developing their CAPs for submission to HHS.


      Key OIG Reports                                   Specific Recommendations

U.S. Department of Health              Assess the need for additional actions to meet improper payment
and Human Services Met                 rate reduction targets,
Many Requirements of the
Improper Payments                      develop and report improper payment rate reduction targets and
Information Act of 2002 But            corrective actions plans for the Children’s Health Insurance
Was Not Fully Compliant.               Program (CHIP),
A-17-13-52000. 2013 MAR.
                                       ensure that amounts used in computations for reporting
                                       overpayments recaptured are accurate and complete, and

                                       ensure that data are retained in accordance with program
                                       requirements.


Part A and Part B. Medicare            CMS should review the process for overseeing contractors’ error
HHS Office of Inspector General                                                                          Page 36
Compendium of Priority Recommendations | March 2014



      Key OIG Reports                                      Specific Recommendations

Claims Administrative                   rate reduction,
Contractors' Error Rate
Reduction Plans.                        ensure that contractors submit clear plans for reducing their error
OEI-09-12-00090. 2014 JAN.              rates,

                                        provide additional guidance for contractors and CMS staff who
                                        review plans, and

                                        provide error rate reduction incentives that are aligned with the
                                        contracts’ error rates and performance periods.

See also:
•   2012 JUL—U.S. Department of Health and Human Services Did Not Fully Comply With Executive Order 13520
    When Reporting Fiscal Year 2010 High-Dollar Improper Payments. A-02-11-01007.

•   2012 MAR—U.S. Department of Health and Human Services Did Not Fully Comply With Federal Requirements
    for Reporting Improper Payments A-17-12-52000.

•   2012 MAR—Review of CERT Errors Overturned Through the Appeals Process for Fiscal Years 2009 and 2010.
    A-01-11-00504.

•   2011 JUL—Testimony of Daniel R. Levinson, Inspector General, before the House of Representatives,
    Committee on Oversight and Government Reform, Subcommittee on Government Organization Efficiency and
    Financial Management. “Improper Medicare Payments.” (Testimony.)

•   2011 JUL—Testimony of Lewis Morris, Chief Counsel to the Inspector General, before the United States Senate
    Committee on Homeland Security & Governmental Affairs, Subcommittee on Federal Financial Management,
    Government Information, Federal Services, and International Security. “Harnessing Technology and Innovation
    to Cut Waste and Curb Fraud in Federal Health Programs.” (Testimony.)

•   2011 MAR—Testimony of Daniel R. Levinson, Inspector General (PDF), before the United States House of
    Representatives Committee on Appropriations, Subcommittee on Labor, Health and Human Services,
    Education, and Related Agencies. “Improper Payments.” (Testimony.)

•   2011 MAR—Testimony of Daniel R. Levinson, Inspector General (PDF), before the United States Senate
    Committee on Finance. “Preventing Health Care Fraud: New Tools and Approaches to Combat Old
    Challenges.” (Testimony.)



25 Correct deficiencies found in financial statement audits
HHS’s financial management systems.
The Chief Financial Officers Act of 1990, as amended, (CFO Act) requires OIG or an independent external
auditor, as determined by OIG, to audit the HHS financial statements in accordance with applicable
standards. We contracted with the independent certified public accounting firm of Ernst & Young, LLP, to
conduct the audit.
HHS Office of Inspector General                                                                     Page 37
Compendium of Priority Recommendations | March 2014


The FY 2013 financial statement audit noted that HHS continued to make strides to improve controls
within the Information Technology infrastructure that supports the financial application system. HHS
continued to address and implement the existing governance, financial process and practices, and
system tools needed to enhance controls over application information security and contingency
planning. The audit noted a focused effort is still needed to more completely remediate long
outstanding deficiencies to a level that supports an auditor’s reliance on controls within the financial
systems. Deficiencies were noted over controls related to segregation of duties, change management,
and access to HHS financial systems. The FY 2013 financial statement audit also noted internal control
weaknesses in financial systems and processes, including the lack of integrated financial management
systems and insufficient analysis of certain accounts that impaired the abilities of HHS and its operating
divisions to adequately support and analyze account balances in a timely fashion. HHS’s financial
management systems still did not substantially comply with Federal financial management systems
requirements.


       Key OIG Report                                    Specific Recommendations

Department Health and                  HHS should continue to develop and refine its financial
Human Services Fiscal Year             management systems and processes to improve its accounting,
2013 Agency Financial                  analysis, and oversight of financial management activity and
Report. Section II. Daniel R.
Levinson, Inspector General,           continue to focus on remediating the remaining financial
OIG Report on the Financial            management system deficiencies.
Statement Audit of the
Department of Health and
Human Services for Fiscal
Year 2013 . (pp. 43, 44, 53,
56, 57, and 63.)
A-17-13-00001. 2013 DEC.


CMS’s financial reporting and related processes and Medicare
information systems controls.
Financial reporting. CMS relies on a decentralized organizational structure and complex financial
management systems—not only within its central office and regional offices’ processes, but also within
many of the Medicare contractor organizations—to accumulate data for its financial reporting. Most
recommendations were carried forward from past years. During FY 2013, CMS continued to improve its
financial management performance in many areas and continues to focus its efforts to address the
remaining significant deficiencies.

Systems Controls. CMS’s information systems controls were considered a significant deficiency in the
FY 2013 financial statement audit because CMS continues to experience difficulties in implementing its
policy of least privilege access, preventing and monitoring for inconsistencies in access rights, and
mitigating the potential impact on adequate segregation of duties. Also, there was inconsistent
implementation planning and execution of CMS’s overall directives and guidance over information
security controls across the CMS enterprise, including the Medicare claims processing contractors.
HHS Office of Inspector General                                                                   Page 38
Compendium of Priority Recommendations | March 2014



       Key OIG Report                                 Specific Recommendations

CMS Financial Report, Fiscal     Improve CMS’s financial reporting and related processes.
Year 2013. Audit Opinion
Section. Daniel R. Levinson,         CMS should continuously monitor the State Medicaid draws and
Inspector General, Report on         improve grant oversight activities to ensure that States deposit
the Financial Statement Audit        the funds back after a deferral is issued and report timely,
of the Centers for Medicare &        accurately, and consistently on the funds drawn.
Medicaid Services for Fiscal
                                     establish a process to perform a claims-level detailed lookback
Year 2013, pp. 109, 127, 134-
                                     analysis of Medicaid entitlement benefits due and payable to
135. A-17-13-02013.
                                     determine the reasonableness of the methodology used to
2013 DEC. (p. 108)
                                     estimate the accrual;

                                     continue to improve the efficiency of the various error rate
                                     processes to allow more time to analyze the findings and the
                                     development of remediation plans;

                                     continue to implement an integrated financial management
                                     system to promote consistency and reliability in accounting and
                                     financial reporting;

                                     continue to enhance its process related to the development,
                                     documentation, and validation of critical accounting matters and
                                     to delegate the responsibility of the centers or offices to provide
                                     robust analyses on a routine and recurring basis; and

                                     Continue to adhere to established policies and procedures to
                                     ensure that the statement of social insurance (SOSI) model
                                     methodology, related calculations and estimates are consistently
                                     documented.

                                 Improve Medicare information systems controls.

                                     CMS should ensure that systems are appropriately and timely
                                     certified, related system security plans are complete and prepared
                                     by all system owners and Medicare fee-for service contractors,
                                     and documentation of all interconnections between Medicare
                                     contractors is consistently prepared;

                                     ensure that all application changes and interfaces to CMS
                                     systems, including Medicare fee-for-service shared systems, are
                                     documented and tested timely, adequately, and completely; and
HHS Office of Inspector General                                                                   Page 39
Compendium of Priority Recommendations | March 2014



      Key OIG Report                                  Specific Recommendations

                                     ensure that appropriate segregation of duties is established for all
                                     systems that support CMS’s programs, including Medicare
                                     fee-for-service claims and related financial processing at claims
                                     processing contractors and enterprise data centers to prevent
                                     excessive or inappropriate access.
